           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



         ASSESSMENT OF
      F-1 STUDENTS’ USE OF
    SOCIAL SECURITY NUMBERS

  September 2007   A-08-07-17085




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 12, 2007                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Assessment of F-1 Students’ Use of Social Security Numbers (A-08-07-17085)


           OBJECTIVE
           Our objectives were to (1) determine whether F-1 students worked on- or off-campus or
           were not employed and (2) assess schools’ compliance with F-1 enumeration
           regulations.

           BACKGROUND

           About 600,000 foreign students were enrolled in educational institutions in the
           United States during the 2005-2006 academic year. Our audit focused on students with
                              1
           F-1 classifications because these foreign students are unique in that they are eligible
           to work on campus without obtaining specific approval from the Department of
           Homeland Security (DHS). Instead, DHS requires that schools ensure F-1 students are
           attending classes full-time and are in good academic standing. If so, students are
                                                                                           2
           eligible to work on campus up to 20 hours per week while school is in session.

           To obtain a Social Security number (SSN), F-1 students must provide the Social
           Security Administration (SSA) evidence of age, identity, legal work-authorized alien
           status and enrollment in a DHS-approved educational institution. 3 Additionally,
           effective October 13, 2004, F-1 students who do not have a DHS Employment
           Authorization Document or authorization for curricular practical training must provide
           evidence of on-campus work authorization and verification that the student has secured



           1
            The F-1 classification includes academic students in colleges, universities, seminaries, conservatories,
           academic high schools, other academic institutions and language schools.
           2
            We focused our review on F-1 students who presented employment documentation for general
           on-campus work. F-1 students may engage in other types of employment with DHS authorization.
           3
            SSA maintains a searchable database of DHS-approved schools, which field office staff use when
           processing an F-1 student’s SSN application to ensure the student is attending a DHS-approved school.
Page 2 - The Commissioner


employment or a promise of employment before SSA will assign an SSN. 4 This
regulatory change was designed to decrease the potential for SSN misuse by reducing
the proliferation of SSNs for purposes that are not related to work. Although most F-1
students are exempt from Social Security taxes, wages and compensation paid to them
for services performed to carry out the purpose for which they were admitted are
generally taxable and reportable on a Wage and Tax Statement (Form W-2). SSA
posts reported earnings to its Master Earnings File.

In July 2006, we issued a Congressional Response Report on Compliance with
Employment Evidence Requirements for F-1 Students, in which we identified
24,504 F-1 students whom SSA assigned original SSNs from July 15 through
September 30, 2005. We selected a random sample of 250 F-1 students and
contacted their respective schools to verify their attendance and work status. The
schools reported that 96 percent of the F-1 students were enrolled in classes and
working on campus. Although wage data were not available during our review, we
subsequently determined that almost one-fourth of the F-1 students in our sample did
not have wages posted to their earnings records for 2005, indicating they may not have
worked on-campus. Because of the significant difference in what schools reported and
what we found, we elected to review wage data for all 24,504 F-1 students to determine
whether they worked on- or off-campus or were not employed.

To accomplish our objectives, we analyzed wage data to determine the employment
status of F-1 students and identify schools with large numbers or high percentages of
F-1 students who may not have been employed on-campus. In addition, we contacted
selected schools and SSA field offices to discuss compliance with F-1 enumeration
regulations. See Appendix A for information regarding our scope and methodology.

RESULTS OF REVIEW

Although the number of F-1 students who improperly obtain SSNs cannot be quantified,
we are concerned that some F-1 students and schools may exploit vulnerabilities in the
enumeration process to facilitate SSN attainment. Of the 24,504 F-1 students
reviewed, we identified 2,479 (10 percent) who did not have wages posted to their SSA
earnings records in 2005 or 2006 5 indicating they may not have worked on-campus. 6




4
    20 C.F.R. § 422.107(e)(2).
5
    Some 2006 wages may not have been posted as of April 30, 2007.
6
  An Internal Revenue Service tax rules specialist and SSA Employment Services Liaison Officers told us
that schools generally report F-1 student wages on Form W-2. As such, we believe F-1 students who did
not have wages posted to their earning records may not have worked. However, there could be instances
in which F-1 students worked on-campus, but schools did not report their wages to SSA.
Page 3 - The Commissioner


We also identified 680 (3 percent) who worked off-campus. 7 That is, about 13 percent
of F-1 students may have obtained SSNs for purposes other than on-campus
employment.

We also determined the number of F-1 students who did not have posted wages
decreased from 21 percent in 2005 to 10 percent in 2006. As such, we believe some
F-1 students may not have started working until months after obtaining their SSNs. In
addition, based on our field office discussions, SSA personnel did not always
understand and comply with F-1 student enumeration policies and procedures.

To address concerns about SSN integrity, SSA implemented a more restrictive
regulation for F-1 students that required evidence of actual or promised general
on-campus employment, and we commend the Agency for its efforts. However, we
believe SSA should take additional steps to reduce vulnerabilities in the F-1
enumeration process. We question whether assigning SSNs to F-1 students months in
advance of planned employment is prudent. Instead, we believe SSA should only
assign SSNs to F-1 students who will begin working within 30 days of their SSN
application date. Based on our field office discussions, we also believe SSA should
reemphasize the importance of understanding and following all policies and procedures
when processing SSN applications from F-1 foreign students. In addition, we believe
SSA should coordinate with schools and foreign student associations to educate the
university community about SSA’s policies and procedures regarding F-1 student
enumeration. We believe SSA should focus its efforts on schools that may facilitate F-1
students’ attainment of SSNs by confirming employment—with no real intent to hire the
student and those that offer courses of study such as English as a Second Language or
other non-degree programs.

SOME F-1 STUDENTS MAY HAVE OBTAINED SSNs FOR PURPOSES OTHER
THAN ON-CAMPUS EMPLOYMENT OR OTHER AUTHORIZED WORK

Of the 24,504 F-1 students whom SSA assigned original SSNs from July 15 through
September 30, 2005, we identified 2,479 (10 percent) who did not have posted wages
for 2005 or 2006 (Figure 1). Contrary to SSA regulation, some of these students may
have obtained SSNs for purposes other than on-campus employment or other
authorized work. In addition, we identified 680 (3 percent) F-1 students who worked
off-campus for a variety of employers, including fast food establishments, temporary
labor providers and department stores. We also identified 319 (1 percent) F-1 students
who worked on- and off-campus.




7
  At the time of SSN application, these F-1 students presented documentation for on-campus employment
and there was no evidence to indicate they were engaged in curricular practical training, optional practical
training, or other DHS authorized employment.
Page 4 - The Commissioner


                    Figure 1: F-1 Students Wages for 2005 or 2006

                                                              3% 1%
                                                        10%

           On-Campus/Authorized Work 21,026

           No Posted Wages 2,479

           Off-Campus 680

           On- and Off-Campus

                                                                    86%


A more detailed analysis of reported wages showed that 50 percent or more of F-1
students at 47 schools did not have any reported wages for 2005 or 2006 or worked
off-campus. For example, 56 (96 percent) of 58 F-1 students at 1 school did not have
wages for on-campus employment or other authorized work for either 2005 or 2006.
These schools represent a variety of educational institutions, including language
schools, community colleges, religious institutions as well as colleges and universities.
However, schools with the highest percentages of F-1 students with no reported wages
were generally non-traditional schools that offered courses of study such as English as
a Second Language or other non-degree programs.

Some F-1 Students May Have Started Working Months After SSN Attainment

Of the 24,504 F-1 students whom SSA assigned original SSNs from July 15 through
September 30, 2005, we identified 5,184 (21 percent) who did not have posted wages
for 2005 (Figure 2). In addition, we identified 421 (2 percent) who worked off-campus
and 185 (1 percent) who worked on- and off-campus. Comparing the percentage of F-1
students who did not have any posted wages in 2005 (21 percent) with the same
percentage in 2006 (10 percent), it appears that some F-1 students may not have
started working until months after obtaining their SSN.
Page 5 - The Commissioner


                            Figure 2: F-1 Students Wages for 2005



                                                                      2% 1%
                                                            21%
          On-Campus/Authorized Work 18,689

          No Posted Wages 5,184

          Off-Campus 421

          On- and Off-Campus
                                                                                    76%




SOME STUDENTS AND SCHOOLS MAY HAVE EXPLOITED VULNERABILITIES IN
THE ENUMERATION PROCESS TO FACILITATE SSN ATTAINMENT

As documented in our July 2006 Congressional Response Report, some F-1 students
and schools may have manipulated the enumeration process to inappropriately obtain
SSNs. For example, some school officials and field office personnel told us that some
F-1 students worked at jobs for a short period of time (for example, 1 or 2 days) or did
not begin work at all. 8 They believed the students obtained offers of employment to
qualify for an SSN but had no intention of starting or continuing to work on-campus.
For example, we identified 550 (2 percent) F-1 students who had posted wages of
$100 or less. At one school, over 60 percent of the F-1 students had only worked for
1 hour on-campus. We also had reports that F-1 students decided not to accept job
offers after confirming their class schedules. Officials at one school told us that
university food services personnel complained to the Office of International Education
because some F-1 students did not return to work after receiving the employment
letters necessary to obtain an SSN.

Based on information we received from our Office of Investigations and SSA field
offices, some schools may have facilitated F-1 students’ attainment of SSNs by
confirming employment—with no real intent to hire the student. For example, several
field offices reported that F-1 students admitted they had no plans to work once they
obtained an SSN. Field office personnel also reported concerns that some schools
were providing evidence of employment to F-1 students even though the schools were
small and the number of on-campus jobs seemed disproportionate. For example, we
identified several schools that provided evidence of employment to twice the number of
F-1 students than estimated jobs on-campus.


8
 We recognize there are legitimate reasons (for example, illness, low grades, or heavy course workload)
why some F-1 students may have worked at jobs for a short period of time or did not begin work at all.
Page 6 - The Commissioner


FIELD OFFICE PERSONNEL DID NOT ALWAYS UNDERSTAND AND COMPLY
WITH F-1 STUDENT ENUMERATION POLICIES AND PROCEDURES

Through discussions with SSA personnel at five field offices, we determined that
managers and staff did not always understand and comply with F-1 enumeration
policies. Our discussions regarding F-1 student enumeration policies and procedures
showed that personnel at two of five field offices we contacted did not fully understand
or comply with F-1 enumeration policies. For example, personnel at one field office told
us they processed F-1 student SSN applications at one college because school
representatives told them they were “looking for jobs” for F-1 students. Field office
personnel told us they enumerated virtually all F-1 students, whether they planned to
work or not. In fact, they told us some F-1 students questioned why they were applying
for an SSN because they did not plan to work. According to field office personnel, the
only documentation school representatives provided was a letter stating that F-1
students are “authorized to work” on campus. The field office manager and claims
               9
representative at this office did not understand that F-1 students should be employed
or have a promise of employment before SSN assignment.

SSA personnel at another field office told us they enumerated F-1 students based on a
letter from the Designated School Official, which stated that F-1 students were
authorized to work on-campus. Field office personnel did not require that F-1 students
provide a letter from their on-campus employer showing the type, place, or start date of
employment, as required by SSA policy. The office manager told us his staff would
begin requiring such documentation in the future.

To increase control over the SSN application process, improve the quality of data used
to assign an SSN, and enable management to better control the enumeration workload,
SSA developed the SS-5 Assistant, a Microsoft Access-based application. This
program provides field office personnel processing SSN applications structured
interview questions and requires certain data to complete the application process.
Although SS-5 Assistant is designed to ensure that field office personnel follow all
policies and procedures for enumerating F-1 students, including a drop down menu
listing acceptable documents, we are concerned that some personnel process SSN
applications without requiring appropriate evidentiary documentation. For example, we
believe some field office personnel check the SS-5 Assistant option “Designated School
Official AND Employment Letter,” but do not require F-1 students to provide a letter
from their on-campus employer showing the type, place, or start date of employment.
As discussed above, personnel at two of the five field offices we visited told us they
generally enumerated F-1 students based on letters from Designated School Officials
and did not require employment letters.




9
 The claims representative in this office was responsible for working with local colleges and universities to
assist them in obtaining SSNs for eligible F-1 students.
Page 7 - The Commissioner


OPPORTUNITY FOR SSA TO REDUCE ITS RISK FROM F-1 STUDENTS WHO
IMPROPERLY OBTAIN SSNs

We believe SSA should take additional steps to reduce improper SSN assignment to
F-1 students. We question whether assigning SSNs to F-1 students months before
their planned employment start date is prudent. We believe some F-1 students may
apply for an SSN months in advance because they believe they need the number
immediately to function in U.S. society. To enhance SSN integrity, we believe SSA
should only assign SSNs to F-1 students whose employment start date is within
30 days of their SSN application date. We believe the Agency should make
modifications to its enumeration system (that is, the SS-5 Assistant or the future Social
Security Number Application Process 10) to ensure field office personnel comply with this
policy. We recognize such a policy change will require SSA to conduct outreach efforts
to schools. As such, we believe field office personnel should coordinate with local
schools to inform them of the new requirement and encourage F-1 students not to apply
for an SSN unless they plan to begin working within 30 days of their SSN application
date.

Because some field office personnel with whom we spoke did not fully understand F-1
student enumeration policy, we believe SSA should also reemphasize the importance
of following all policies and procedures when processing SSN applications from F-1
foreign students and take corrective action to address performance problems or training
needs when Agency personnel do not comply with this requirement. In addition, we
believe SSA should coordinate with schools and foreign student associations to
educate the university community about SSA’s policies and procedures regarding F-1
student enumeration. We believe SSA should focus its efforts on schools that may
facilitate F-1 students’ attainment of SSNs by confirming employment—with no real
intent to hire the student and those that offer courses of study such as English as a
Second Language or other non-degree programs.

CONCLUSION AND RECOMMENDATIONS

As SSA continues enhancing SSN integrity, dishonest individuals will continue
exploiting even the smallest vulnerabilities in the Agency’s controls. Unless SSA takes
additional steps to strengthen its controls over SSN assignment for F-1 students,
threats to SSN integrity will remain. Given the potential for F-1 students to improperly
obtain SSNs, we believe SSA would benefit by taking additional steps to reduce the
possibility of such activity.




10
  SSA is in the Planning and Analysis phase of developing the Social Security Number Application
Process, an automated SSN assignment system that will replace the SS-5 Assistant and Modernized
Enumeration System. The Agency is determining the user requirements for this process and plans to
implement this system within the next 2 years.
Page 8 - The Commissioner


Accordingly, we recommend that SSA:

1. Prevent SSN assignment to F-1 students when their employment start date is 30 or
   more days from their SSN application date. Specifically, the Agency should make
   the necessary modifications to its enumeration system (that is, the SS-5 Assistant
   and/or the future Social Security Number Application Process) to ensure field office
   personnel comply with this policy.

2. Reemphasize to field office personnel the importance of understanding and following
   all policies and procedures when processing SSN applications for F-1 students and
   take corrective action to address performance problems or training needs when
   Agency personnel do not comply with this requirement.

3. Coordinate with schools and foreign student associations to educate the university
   community about SSA’s policies and procedures regarding F-1 student
   enumeration. We believe SSA should focus its efforts on schools that may facilitate
   F-1 students’ attainment of SSNs by confirming employment—with no real intent to
   hire the student and those that offer courses of study such as English as a Second
   Language or other non-degree programs.

AGENCY COMMENTS

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix B.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Agency Comments
APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                       Appendix A

Scope and Methodology
To achieve our objectives, we

•   reviewed the Social Security Administration’s (SSA) regulations governing the
    issuance of Social Security numbers (SSN) to foreign academic students in the F-1
    classification.

•   identified 24,504 F-1 students assigned SSNs from July 15 through
    September 30, 2005.

•   queried the Master Earnings File for wage data for each student.

•   analyzed wage data and attempted to determine whether F-1 students worked
    on-campus, off campus or were unemployed.

•   performed trend analysis to identify schools with high percentages of F-1 students
    who did not have reported wages.

•   interviewed SSA representatives from five field offices and the Office of Income
    Security Programs to discuss methods to reduce SSA’s risk of assigning SSNs to
    ineligible F-1 students.

•   contacted selected schools, SSA field offices, and the Internal Revenue Service to
    discuss compliance with F-1 enumeration regulations.

The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We relied primarily on Modernized Enumeration System and Master Earnings File data
to complete our review and determined that the data used in the report were sufficiently
reliable given the audit objective and use of the data. We conducted our work from
December 2006 through May 2007 in accordance with generally accepted government
auditing standards.
                  Appendix B

Agency Comments
                                              SOCIAL SECURITY

MEMORANDUM


Date:      August 30, 2007                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster             /s/ David Rust for David Foster
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Assessment of F-1 Students' Use of Social
           Security Numbers" (A-08-07-17085)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                              B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ASSESSMENT OF F-1 STUDENTS' USE OF SOCIAL SECURITY
NUMBERS" (A-08-07-17085)


Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
acknowledgement of the work we have done to ensure integrity with regard to the assignment of
Social Security numbers (SSN) to F-1 students. We will continue to maintain the integrity of the
enumeration process while preserving the rights of foreign students who enroll in educational
institutions in the United States and are eligible to obtain a SSN for their work on the campuses
of these institutions. Our responses to the specific recommendations are provided below. In
addition, we believe this report should be shared officially with the Immigration and Customs
Enforcement office in the Department of Homeland Security (DHS) since they are responsible
for oversight of the F-1 program as part of the Student Exchange Visitor Program (SEVP).

Recommendation 1

The Social Security Administration (SSA) should prevent SSN assignment to F-1 students when
their employment start date is 30 or more days from their SSN application date. Specifically, the
Agency should make the necessary modifications to its enumeration system (that is, the SS-5
Assistant and/or the future Social Security Number Application Process (SSNAP)) to ensure field
office personnel comply with this policy.

Response

We agree. Revised instructions that state that SSNs will not be assigned to an F-1 student if the
start date for on-campus employment or curricular practical training is more than 30 days from
the SSN application date are currently under intercomponent review. Within these instructions,
we will also clarify that if an F-1 student presents an Employment Authorization Document
(EAD) from DHS, we will not accept the SSN application if the validity period of the EAD is in
the future. We anticipate these instructions will be published by the end of September 2007.
Once the policy changes are effective, the necessary system modifications will be considered for
the SSNAP and the SS-5 Assistant so that the systems will be consistent with the policy.

Recommendation 2

SSA should reemphasize to field office personnel the importance of understanding and following
all policies and procedures when processing SSN applications for F-1 students and take
corrective action to address performance problems or training needs when Agency personnel do
not comply with this requirement.




                                               B-2
Response

We agree. Training on these new procedures will be provided to field office personnel as soon as
the F-1 policy changes are placed on PolicyNet. This training should help ensure that all field
office personnel better comply with F-1 enumeration requirements.

Recommendation 3

SSA should coordinate with schools and foreign student associations to educate the university
community about SSA’s policies and procedures regarding F-1 student enumeration. We believe
SSA should focus its efforts on schools that may facilitate F-1 students’ attainment of SSNs by
confirming employment—with no real intent to hire the student and those that offer courses of
study such as English as a Second Language or other non-degree programs.

Response

We agree. We will provide information to DHS SEVP and the National Association of Foreign
Student Advisers: Association of International Educators about the policy changes regarding the
enumeration of F-1 students that they can publish on their web sites. We will also update the
“International Students and Social Security Numbers” online publication and provide a “Dear
Colleague” letter that field office managers can provide to schools and universities in their
service areas that explain the policy changes. We will continue with our ongoing outreach efforts
with education facilities in order to ensure that they have updated information regarding our
policies and procedures regarding F-1 student enumeration.




                                              B-3
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1650

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Kathy Yawn, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-07-17085.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
